K

CIVIL CASE
18-50530

In The
SUPREME COURT OF THE UNITED STATES

Todd A. English
Applicant / Petitioner
v.
Sonny Perdue- Secretary, USDA
Defendant! Appellee

Application for an Extension of Time Within
Which to File a Petition for Writ of Certiorari to the
Supreme Court of The United States

•APPLICATION TO THE HONORABLE JUSTICE
SAMUEL A. ALITO JR. AS CIRCUIT JUSTICE

December 4, 2019

Todd A. English- Pro Se
Applicant / Petitioner
4009 Lakecliff Drive
Harker Heights, TX 76548
(512) 289-1169
ensw777@aol.com

RECEIVED
DEC 11 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

APPLICATION FOR AN EXTENSION OF TIME
Pursuant to Rule 13.5 of the Rules of this Court, Applicant Todd A. English
respectfully requests a 60-day extension of time within which to file a Petition for a
Writ of Certiorari up to and including Friday, February 14, 2020.
JUDGEMENT FOR WHICH REVIEW IS SOUGHT
The judgement for which review is sought is Todd A. English v. Sonny
Perdue, Secretary- USDA, No. 18-50530. The 5th Circuit Court of Appeals Affirmed
the lower courts decision and a request for Rehearing En Banc was requested. The
Rehearing En Banc was denied and English was notified of the Order and
Judgement on September 16, 2019 (attached as exhibit 1).
JURISDICTION
This Court will have jurisdiction over this timely filed Petition for Certiorari
in this case pursuant to 28 U.S.C. § 1254(1). Under Rule 13.1, 13.3 and 30.1 of the
Rules of this Court, a Petition for a Writ of Certiorari was due to be filed on or
before September 16, 2019. In accordance with Rule 13.5, this Application is being
submitted 12 days in advance of the filing date for the Petition for a Writ of
Certiorari.
REASONS JUSTIFYING AN EXTENSION OF TIME
1. English is Pro Se without any formal training and legal research has
proven to be most difficult and extremely time consuming, given the fact
that he has no resources other than the internet.

s'
2. English suffered a bout of shingles that caused him to miss 3 weeks of
work and lasted for 8 weeks. This cost him valuable research and
preparation time that is necessary for the many issues related to this
case, and for which, the wisdom of the Supreme Court is sought.
3. English did not realize the difficulty in meeting this Court’s requirements
regarding assembling the Petition into booklet format and finding the
proper size and pound of paper. I have contacted 5 entities, Staples, Office
Max/ Office Depot, Supreme Court Paper (whom I have attempted to
contact on 6 different occasions via messaging and voicemails) and
Supreme Court Press, attempting to find the paper and they either do not
supply it, nor can they order it, or they haven’t returned emails and phone
calls. The last business is still working on an estimate for producing the
Petition into booklet form.
4. English feels strongly that this case is worthy of the full attention of the
Supreme Court due to the complexity of violations of English’s 1st and 5th
Amendment rights, violations of federal laws committed by managers of a
federal agency, how federal laws should factor into Title VII and ADEA
standards, and the fact that his attorney was allowed to withdraw based
on a “conclusory statement”. These are issues that will have an impact
upon future cases, therefore, granting the 60-day extension would aid in
the pursuit of justice.

<>'4
ts

CONCLUSION
For the reasons mentioned above, English respectfully requests that
this Court grant an extension of 60-days, up to and including February 14,
2020, within which to file a Petition for a Writ of Certiorari in this case.

Respectfully Submitted

Todd A. English- Pro Se
Applicant
4009 Lakecliff Drive
Harker Heights, TX 76548
(512) 289-1169
ensw777@aol.com

